APPENDICES

1a
APPENDIX A
United States Court of Appeals
for the Tenth Circuit

United States of America,
Plaintiff-Appellee,
v.
Giovanni
Montijo-Dominguez,
Defendant-Appellant.

United States of America,
Plaintiff-Appellee,
v.
Luis
Mendoza-Alarcon,
Defendant-Appellant.

No. 18-2008, No. 18-2036
Filed April 25, 2019
Before MORITZ, KELLY, and EID, Circuit Judges.∗
ORDER AND JUDGMENT∗∗

Paul J. Kelly, Jr., Circuit Judge
Defendants-Appellants Luis Mendoza-Alarcon and
Giovanni Montijo-Dominguez were convicted of conspiracy to possess with intent to distribute cocaine. 21
U.S.C. § 846. Mr. Mendoza was sentenced to 144
months’ imprisonment and five years’ supervised release; Mr. Montijo was sentenced to 120 months’ im∗

This order and judgment is not binding precedent, except under
the doctrines of law of the case, res judicata, and collateral estoppel. It may be cited, however, for its persuasive value consistent
with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
∗∗

This panel previously determined unanimously to grant the
parties’ request for a decision on the briefs without oral argument.
See Fed. R. App. P. 34(f); 10th Cir. R. 34.1(G). The case has therefore been submitted without oral argument.

2a
prisonment and five years’ supervised release. They
now appeal from the district court’s denial of their motions for judgment of acquittal, Fed. R. Crim. P. 29,
and from the district court’s refusal, upon the jury’s request, to clarify a jury instruction relating to the definition of a criminal conspiracy.1 Separately, Mr. Montijo appeals from the district court’s finding him ineligible to receive the “safety valve” under 18 U.S.C.
§ 3553(f) and the corresponding Guideline reduction
under U.S.S.G. § 5C1.2(a)(5) for a sentence below the
mandatory minimum.
We consolidate their appeals for the purposes of
this opinion in light of their interrelated nature. Fed.
R. App. P. 3(b)(2). Exercising jurisdiction under 28
U.S.C. § 1291 and 18 U.S.C. § 3742(a), we affirm.
Background

According to Mr. Mendoza, Lazaro Mendoza-Dominguez (“Lazaro”) asked him if he would be interested
in buying Lazaro’s house in Santa Fe, New Mexico.
3 R. 1367-69; 1 Supp. R. Exs. H1, H2 & H3 (pp. 501503).2 Mr. Mendoza expressed interest, but their negotiations took a turn when Lazaro told Mr. Mendoza to
expect a call from persons who would give him instructions to purchase $250,000 worth of cocaine. 3 R. 137576, 1383. The caller would refer to “Sergio from Cuauhtemoc” and use code words “paint” and “invoices.” Id. at
1

Although Mr. Montijo did not raise this latter claim in his opening brief, the Clerk of the Court granted his request to join and
adopt the Identified Issues in Mr. Mendoza’s opening and reply
briefs. Order, United States v. Montijo-Dominguez, No. 18-2008
(Nov. 15, 2018); Order, United States v. Montijo-Dominguez, No.
18-2008 (Jan. 4, 2019).

2

Citations refer to the record in Case No. 18-2036 unless otherwise indicated.

3a
1376. Lazaro instructed Mr. Mendoza to deliver the
purchased narcotics to Lazaro’s garage at his home. Id.
at 1378. Mr. Mendoza claims Lazaro made clear that
his compliance ensured Mr. Mendoza’s daughter in
Mexico would not be kidnapped or tortured. Id. at
1375-76.
In the meantime, Homeland Security Investigations (HSI) agents had learned that a man named
“Leche” was interested in purchasing large quantities
of cocaine. Id. at 777. Using the code words “white
paint,” undercover HSI agents called “Leche,” whom
they later learned was Mr. Mendoza, to coordinate a
reverse sting operation where Mr. Mendoza would purchase six kilograms of cocaine for $150,000. Id. at 90304, 951, 1031-32. Mr. Mendoza agreed to deliver the
money at a Walmart parking lot in Albuquerque, New
Mexico. Id. at 280. On the morning of the scheduled
transaction, Mr. Mendoza asserts he attempted to call
his friend, but he reached his friend’s brother, Mr.
Montijo, instead. Id. at 1416. He told Mr. Montijo
about needing to give drug cartel members his life savings, but he claimed not to have told Mr. Montijo that
the transaction involved narcotics. Id. at 1421. Mr.
Mendoza asked Mr. Montijo to accompany him, and he
testified that because he was too upset to drive, Mr.
Montijo agreed to drive the pair to Albuquerque. Id. at
1417-18.
Mr. Mendoza and Mr. Montijo met the undercover
agents in the Walmart parking lot. The agents testified
that Mr. Montijo drove in a “countersurveillance” pattern in the parking lot, id. at 1207-10, that Mr. Mendoza used “coded” language when discussing the narcotics, id. at 971-72, 1134, and that Mr. Montijo was in
close proximity to Mr. Mendoza during the narcotics
discussion and did not appear ignorant of the subject

4a
matter. Id. at 978. Both Mr. Mendoza and Mr. Montijo
asked the agents if they could complete the transaction
elsewhere. Id. at 972, 1133-35. The agents declined,
and Mr. Montijo handed cash, which was wrapped in
clear plastic and in bundles, to them. Id. at 285-86,
1146. More undercover agents then arrived in a separate vehicle that purportedly contained cocaine. Id. at
287-88, 1426-27. Mr. Mendoza entered that vehicle, received a bundle purportedly containing cocaine, and
expressed his comfort that the transaction had concluded, at which point the agents signaled other agents
to arrest the pair. Id. at 285-87; 1150. Mr. Montijo ran
upon hearing sirens and seeing the law enforcement officers and their lights, but he was later apprehended.
Id. at 455-57, 1150-51, 1157-58.
Mr. Mendoza and Mr. Montijo were charged with
conspiracy to possess with intent to distribute cocaine;
Mr. Mendoza also was charged with carrying a firearm
during and in relation to a drug trafficking crime. 1 R.
34-38. Mr. Mendoza and Mr. Montijo offered an affirmative defense of duress, 3 R. 212-13, 1994-97, and Mr.
Montijo also argued he believed the transaction involved only an extortion payment, not narcotics. Id. at
218.
The district court’s conspiracy instruction stated,
in part:
A conspiracy is an agreement between two or
more persons to accomplish an unlawful purpose. It is a kind of “partnership in criminal
purposes” in which each member becomes the
agent or partner of every other member.
...
[T]he evidence must show that the members of
the alleged conspiracy came to a mutual un-

5a
derstanding to try to accomplish a common and
unlawful plan.
1 R. 282; see also Tenth Cir. Crim. Pattern Jury Instr.
§ 2.87. During deliberations, the jury sent a note to the
judge, which read, “Dear Judge, 1) pg 6 of instructions
— 2 or more persons agreed to possess[.] Who can be
the 2 people — agents, defendants, etc.?” 1 R. 301. Mr.
Mendoza’s counsel advised the court:
[W]e talked among ourselves. And at the least,
I believe, our viewpoint is the instruction
stands on its own. There’s no reason to supplement it with an additional answer. I can see
the confusion, especially when it comes to the
agents. But nonetheless, I submit that the instruction is complete.
3 R. 2030-31. The government responded that “in the
federal law . . . it can be anyone, and that the other
people who are in the conspiracy don’t need to be genuine members. . . . So the answer to the question is yes,
the two people can be anyone.” Id. at 2031. Mr. Mendoza’s counsel then reiterated that “I don’t think there is
a gap in the instruction that needs to be filled. And my
response is that the jury should be told, You must rely
on the instruction as given.” Id. at 2032. Mr. Montijo’s
counsel added that “the answer is in the instruction.”
Id. at 2033. The court ultimately responded to the jury’s note by telling them, “You must rely on the court’s
instructions as written.” 1 R. 303; 3 R. 2034.
The jury found both Mr. Mendoza and Mr. Montijo
guilty of narcotics conspiracy. Id. at 304. It acquitted
Mr. Mendoza of the weapons charge. Id. Mr. Montijo
then moved for a judgment of acquittal notwithstand-

6a
ing the verdict, or, in the alternative, a new trial.3 See
United States v. Montijo-Dominguez, No. 18-2008, at 2
R. 100-08. The court denied his motion and found there
was sufficient evidence to support the jury’s verdict.
Montijo-Dominguez, No. 18-2008, at 1 R. 64. Mr. Montijo also objected to his Presentence Report. MontijoDominguez, No. 18-2008, at 2 R. 112-23. The PSR did
not recommend a sentence below the mandatory minimum pursuant to § 3553(f) and U.S.S.G. § 5C1.2(a)(5),
but it did recommend a two-level enhancement for obstruction of justice. Montijo-Dominguez, No. 18-2008,
at 3 R. 8-9. Mr. Montijo argued that he had provided at
various times all the information he had and that the
jury’s verdict did not preclude a finding that he testified truthfully. Although the court sustained Mr.
Montijo’s objection to the obstruction enhancement, id.
at 25, it disagreed with his safety-valve argument:
I had no choice but to conclude that he is not
eligible for the safety valve. Because if I concluded that the defendant had fully and completely and truthfully debriefed, I would essentially find contrary to the jury verdict. I reviewed the jury instructions. I could not reconcile the jury verdict with the safety valve.
Montijo-Dominguez, No. 18-2008, at 1 Supp. R. 6.
Discussion

Both Mr. Mendoza and Mr. Montijo challenge the
sufficiency of the evidence supporting a conspiracy to
possess with intent to distribute cocaine and the district court’s directing the jury to the instructions as
given. Separately, Mr. Montijo challenges the district
3

Although Mr. Mendoza did not join in the motion, he orally
moved for a judgment of acquittal following the conclusion of the
government’s case. See 3 R. 1248.

7a
court’s finding him ineligible for safety-valve treatment. We first address Mr. Mendoza’s and Mr. Montijo’s common claims before turning to Mr. Montijo’s individual claim.
A.

Mr. Mendoza and Mr. Montijo Invited Error and
Are Precluded from Challenging the District
Court’s Supplemental Jury Instruction

This court ordinarily reviews a district court’s decision to supplement its jury instructions for abuse of
discretion, United States v. Arias-Santos, 39 F.3d 1070,
1075 (10th Cir. 1994), but the defendants did not object
to the district court’s supplemental instruction. Therefore, as recognized by the defendants, our review is for
plain error. United States v. Thompson, 866 F.3d 1149,
1163 (10th Cir. 2017). Reversal is warranted under a
plain error standard if (1) the district court erred; (2)
the error was plain; (3) the error affected the defendant’s substantial rights; and (4) the error seriously affected the fairness, integrity, or public reputation of
judicial proceedings. United States v. Olano, 507 U.S.
725, 732 (1993).
The crux of the defendants’ argument is that the
jury’s note demonstrated its confusion and possibly erroneous belief that a defendant could be convicted of a
conspiracy solely with a government agent. Mendoza
Aplt. Br. at 31. In addition, the defendants assert that
the district court’s response was “plainly inadequate”
to correct any misunderstanding. Id. The government
contests any error, let alone plain error, because the
district court referred the jury to the adequate instructions, and because defense counsel endorsed the jury
instructions below, thus inviting any error. Mendoza
Aplee. Br. at 12, 15-17. Because the district court’s error, if any there be, was invited, we need not reach

8a
plain-error analysis, and we will not disturb the district court’s decision on handling the jury’s query.
Mr. Mendoza and Mr. Montijo are precluded from
challenging the court’s supplemental instruction on
appeal given the invited error doctrine. A party invites
error, thereby intentionally waiving an issue, when he
“attempt[s] to ‘induce the district court to do anything
it would not otherwise have done,’” or “affirmatively
approv[es]” the court’s decision. United States v.
Rodebaugh, 798 F.3d 1281, 1304 (10th Cir. 2015) (quoting United States v. Morrison, 771 F.3d 687, 694 (10th
Cir. 2014), then United States v. Cornelius, 696 F.3d
1307, 1319 (10th Cir. 2012)). We have also found invited error where a party’s “argument on appeal is a complete reversal from the position [that party] sought to
and did assert” below. United States v. LaHue, 261
F.3d 993, 1013 (10th Cir. 2001).
Mr. Mendoza and Mr. Montijo suggest that the doctrine should not apply, as the government also contributed to the district court’s error. Mendoza Reply Br. at
17; see United States v. Barrow, 118 F.3d 482, 490-91
(6th Cir. 1997). We are not persuaded. Here, trial
counsel for both Mr. Mendoza and Mr. Montijo endorsed the instruction as delivered and argued successfully against further explanation. See Rodebaugh, 798
F.3d at 1304. By explicitly endorsing the jury instructions and arguing against further explanation, Mr.
Mendoza and Mr. Montijo forfeited their right to challenge them on appeal.
B. Sufficient Evidence Supported an Agreement
Between the Defendants to Distribute Cocaine

Sufficiency of evidence claims are subject to de novo review, and we view the evidence in the light most
favorable to the government. Rodebaugh, 798 F.3d at
1296. Reversal is warranted only if no reasonable jury

9a
could have found the defendant guilty beyond a reasonable doubt. Id.
Mr. Mendoza and Mr. Montijo argue that the government’s evidence at best demonstrated a conspiracy
to possess, not distribute, cocaine. Lazaro arranged
that Mr. Mendoza would deposit the purchased cocaine
in Lazaro’s garage. According to Mr. Mendoza and Mr.
Montijo, such a “transfer” of cocaine is different from
distribution. Mendoza Aplt. Br. at 50. Further, Mr.
Mendoza and Mr. Montijo claim Mr. Montijo was not
involved in the transaction until the day of the arrest,4
and that there was no evidence that he knew about the
cocaine or shared a goal to distribute cocaine. Id. at 51;
Montijo Aplt. Br. at 26-27. The government counters
that: (1) the quantity of cocaine involved created an inference of an intent to distribute, (2) there was testimony as to Mr. Mendoza’s and Mr. Montijo’s apparent
expertise in narcotics trafficking, (3) the scheduled delivery to Lazaro’s garage satisfies the element of intent
to distribute, and (4) the participation of both defendants in the conversation with undercover agents established a common purpose to distribute. Mendoza Aplee.
Br. at 21-26; see also Montijo Aplee. Br. at 13-14.
The parties generally agree as to the law. A defendant cannot conspire with another merely by way of
his knowledge of the other individual’s unlawful intent.
Direct Sales Co. v. United States, 319 U.S. 703, 714
(1943). Rather, the co-conspirators must share a common objective, or “common purpose or design.” United
States v. Evans, 970 F.2d 663, 669 (10th Cir. 1992).
4

The Tenth Circuit Criminal Pattern Jury Instruction § 2.87,
given at trial, properly states that “[a] person may belong to a
conspiracy for a brief period of time or play a minor role.” Tenth
Cir. Crim. Pattern Jury Instr. § 2.87; 1 R. 283.

10a
The parties also agree that conspiracy to possess does
not equate to a conspiracy to distribute narcotics. Id.
However, Mr. Mendoza and Mr. Montijo rely on United
States v. Ivy, 83 F.3d 1266 (10th Cir. 1996), to argue
that a “common purpose” exists only when the conspirators shared a profit motive. Mendoza Aplt. Br. at
48. Yet the profit motive language in Ivy merely distinguishes end-user buyers, who cannot be guilty of
conspiring to distribute narcotics, with sellers (the
“buyer-seller” rule). Ivy, 83 F.3d at 1285-86. And, although the district court did not instruct on distribution, “possess with intent to distribute” means possession “with intent to deliver or transfer possession of a
controlled substance to another person, with or without
any financial interest in the transaction.” Tenth Cir.
Crim. Pattern Jury Instr. § 2.85; United States v.
Knight, 659 F.3d 1285, 1293 (10th Cir. 2011). Accordingly, it is immaterial to the defense that Mr. Mendoza
intended only to transfer possession of the cocaine to
Lazaro.
Contrary to Mr. Mendoza’s and Mr. Montijo’s assertions, there is enough evidence to support a common
goal of distributing the six kilograms of cocaine. First,
although the distribution-quantity of narcotics alone is
insufficient to support the jury’s apparent finding,
United States v. Levario, 877 F.2d 1483, 1486 (10th
Cir. 1989), abrogated on other grounds by GozlonPeretz v. United States, 498 U.S. 395, 403 n.7 (1991), a
jury may permissibly infer intent to distribute from
that evidence. United States v. Pulido-Jacobo, 377 F.3d
1124, 1131 (10th Cir. 2004). In addition, the jury heard
testimony that Mr. Mendoza spoke to the agents about
a “next time,” a statement consistent with an intended
narcotics arrangement, not extortion payments. 3 R.
980. There was also testimony that Mr. Montijo engaged in the conversation with the government agents,

11a
such that they believed him to be an experienced drug
trafficker, id. at 969-70, 1133, and that he attempted to
flee at the first sight of identifiable officers. Id. at 115051, 1157-58. Although the jurors heard contrary testimony that Mr. Montijo had no knowledge that the
transaction involved narcotics, it was within their
province to credit one of two conflicting accounts. See
United States v. Pikyavit, 527 F.3d 1126, 1130 (10th
Cir. 2008). Similarly, although Mr. Mendoza explained
that he and Mr. Montijo drove around the parking lot
because of a misunderstanding as to the meeting spot,
3 R. 1424, the agents described their driving as reflecting a “countersurveillance” pattern. See id. at 1207-10.
The jury thus heard (and credited) evidence that Mr.
Montijo was both aware of the nature of the transaction and was intimately involved. Such evidence was
sufficient to support a finding that Mr. Mendoza and
Mr. Montijo conspired to possess with an intent to distribute large quantities of cocaine.
C. The District Court Properly Denied Mr.
Montijo Safety Valve Treatment Under 18
U.S.C. § 3553(f) and U.S.S.G. § 5C1.2

This court reviews a district court’s denial of safety-valve relief for clear error, United States v. Hargrove, 911 F.3d 1306, 1325 (10th Cir. 2019), and it reviews challenges to the district court’s interpretation of
the scope of § 3553(f) and U.S.S.G. § 5C1.2 de novo.
United States v. Stephenson, 452 F.3d 1173, 1180 (10th
Cir. 2006). The government argues for plain error review, contending that Mr. Montijo made a different argument before the district court, namely that he had
provided complete and truthful testimony notwithstanding the verdict. Montijo Aplee. Br. at 20-21. We
have reviewed the arguments below and conclude that
Mr. Montijo did argue that a jury’s verdict should not

12a
have preclusive effect on safety-valve eligibility. Accordingly, we review the district court’s denial of safety-valve relief for clear error, and, to the extent Mr.
Montijo argues that the district court misunderstood
the applicable sentencing statutes, we review its interpretation de novo.
Mr. Montijo points to the court’s statement that “if
[it] concluded that the defendant had fully and completely and truthfully debriefed, [it] would essentially
find contrary to the jury verdict.” He argues that a jury’s finding against a defendant does not foreclose relief under § 3553(f), even when the defendant maintains his innocence as to one or more elements of the
underlying offense. He thus challenges the court’s factual determination that Mr. Montijo’s truthfulness was
inconsistent with the jury’s verdict, and the court’s legal interpretation of § 3553(f) as precluding safetyvalve relief upon a guilty jury verdict. In response, the
government argues a finding that Mr. Montijo had
“truthfully provided to the Government all information
and evidence the defendant has concerning the offense,” § 3553(f)(5), would have been contrary to and
entirely inconsistent with the jury’s verdict, and that
the denial of safety-valve relief was warranted.
1.

The District Court Did Not Clearly Err in
Determining That the Jury Found Mr.
Montijo’s Testimony to be Untruthful

Mr. Montijo argues that the jury could plausibly
have credited his testimony as truthful despite its
guilty verdict, stating that “it is impossible to determine what evidence the jury relied upon to determine
the guilty verdict and the weight of the evidence that it
placed upon Montijo’s testimony.” Montijo Aplt. Br. at
23. Yet he fails to explain how the jury could have credited his testimony that he had no knowledge of the na-

13a
ture of the transaction, yet still convict him of knowingly conspiring with Mr. Mendoza. Instead, the jury
necessarily must have found that Mr. Montijo knowingly participated in a conspiracy with Mr. Mendoza.
Accordingly, the district court did not clearly err in its
finding that the jury found his testimony to be untruthful.
2.

The District Court Properly Interpreted
§ 3553(f)

Mr. Montijo next argues that the district court
committed legal error when it stated that, despite its
reservations about Mr. Montijo’s guilty verdict, safetyvalve relief would be “contrary to the jury verdict.” According to Mr. Montijo, the court’s statement evinced
its misunderstanding that § 3553(f) required a finding
by the jury, not the judge, of Mr. Montijo’s eligibility
for safety-valve treatment. Montijo Aplt. Br. at 16. The
government counters that a judicial finding of Mr.
Montijo’s truthfulness would have impermissibly contradicted the jury’s verdict. Montijo Aplee. Br. at 22-24.
Mr. Montijo relies heavily on a Ninth Circuit case,
United States v. Sherpa, 110 F.3d 656 (9th Cir. 1996),
which allowed a district court to apply safety-valve relief notwithstanding a jury’s finding that a defendant
testified untruthfully. Montijo Aplt. Br. at 18-19, 21-22.
In Sherpa, the jury found a purportedly ignorant defendant guilty for knowingly possessing heroin with intent to distribute and for knowingly importing heroin.
Sherpa, 110 F.3d at 659. Nevertheless, the Ninth Circuit upheld the district court’s decision to apply safetyvalve relief, holding that “the safety valve requires a
separate judicial determination of compliance which
need not be consistent with a jury’s findings.” Id. at
662.

14a
Our circuit’s case law diverges from that of the
Ninth Circuit. Contrary to the holding in Sherpa, we
held in United States v. De La Torre that “[n]o reasonable defendant could claim safety-valve eligibility
based on trial testimony that necessarily contradicts
the conviction itself.” 599 F.3d 1198, 1206 (10th Cir.
2010). Here, Mr. Montijo denied his involvement in a
conspiracy both on the witness stand and during conversations with the government. See Montijo-Dominguez, No. 18-2008, at 2 R. 169-71; id. at 4 R. 1836.
Nevertheless, the jury found him guilty of knowing
participation in the conspiracy. Thus, the district court
could not have granted safety-valve relief without directly undermining the jury’s verdict that he knowingly conspired with Mr. Mendoza. We therefore uphold
the district court’s denial of safety-valve relief.
AFFIRMED.

15a
APPENDIX B

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
UNITED STATES OF
AMERICA
vs.
GIOVANNI MONTIJODOMINGUEZ

No. 1:14-CR-03758-JCH

TRANSCRIPT OF PROCEEDINGS
SENTENCING
December 12, 2017
BEFORE: HONORABLE JUDGE JUDITH HERRERA
UNITED STATES DISTRICT JUDGE
THE COURT: All right. Next is USA versus MendozaDominguez. The case number is 14-CR-3758.
MR. MYSLIWIEC: Good morning, Your Honor.
Paul Mysliwiec for the United States.
THE COURT: Good morning.
MR. MYSLIWIEC: Also with AUSA Samuel Hurtado.
MR. ASSED: Good morning, Your Honor. Ahmad
Assed. I represent Giovanni Montijo-Dominguez.
He is present, Judge.
THE DEFENDANT: Good morning.
THE COURT: Good morning to all of you as well.
Well, this is a continuation of the sentencing hearing that we began previously.

16a
I asked that you-all address primarily the safety
valve issue that was raised at the last hearing.
You-all submitted your supplemental briefing. I
have had an opportunity to review everything.
And so at our last hearing I heard from Counsel, I
heard from Mr. Montijo. And so where we are now
is, to the extent anyone has anything else they’d
like to bring to the Court’s attention, I will hear
from you.
Counsel may—may or may not have additional
comments they’d like to make on the safety valve
issue.
And Mr. Montijo, I would certainly give him an opportunity to address the Court further if he so
chooses.
So let me ask Counsel: Do you have any additional
argument you’d like to raise?
MR. MYSLIWIEC: I don’t have anything further, Your
Honor. But depending on how the Court rules on
the defendant’s objection to the PSR with respect to
safety valve construction and the other objections
the defendant has raised, I may have to say things
after the Court rules.
But I did my best to include all my thoughts in the
briefings.
THE COURT: All right. Thank you.
MR. ASSED: May it please the Court, Your Honor.
I don’t believe we have anything further to add on
that specific issue with regards to the matters that
we continued from the last setting to this morning.
THE COURT: All right. Well, I did review the defendant’s objection regarding safety valve. And I have to

17a
tell you I—I reviewed—I reviewed cases that you all
cited. I reviewed cases that you all did not cite.
I reviewed trial transcripts. I reviewed the debrief
that the defendant provided in October a year ago.
I reviewed the statutory provisions.
I reviewed the guideline provisions.
And I reviewed everything very carefully, because
the defendant is looking at a 10-year mandatory
minimum sentence.
The issue really comes down to, basically, the fifth
prong of the analysis, whether or not the defendant
fully and truthfully debriefed.
I looked at that upside down, inside out. Because if
the defendant is not eligible for safety valve, as I
said a moment ago, he’s looking at a 10-year mandatory minimum.
So I examined everything I could. The government’s
made some comments in their briefing that I
thought were, you know, pretty—pretty telling. I
mean in one brief they noted that the defendant’s—
well, basically, they said that the government didn’t
present any evidence of the defendant’s knowledge
of the nature of the drug deal prior to his arrival
with Luis at the meeting itself, so I looked very
carefully at the defendant’s conduct at the scene.
And the defendant also—excuse me. The government also made the comment in one of their briefs
that Mr. Montijo-Dominguez was only at the transaction to assist Mr. Mendoza-Alarcon.
Those two comments really resonated with me. And
I think they resonated because—because I could see
that the defendant’s conduct seemed to be pretty
limited to what happened there at the scene.

18a
And so I analyzed everything as best I could to see
whether or not the defendant was eligible for the
safety valve.
I had no choice but to conclude that he is not eligible for the safety valve. Because if I concluded that
the defendant had fully and completely and truthfully debriefed, I would essentially find contrary to
the jury verdict.
I reviewed the jury instructions. I could not reconcile the jury verdict with the safety valve. And I
thought it was a bit ironic, because—well, first of
all, obviously, I mean if you haven’t read between
the lines, I will tell you that I think 10 years in this
case for this defendant with these facts, 10 years is
too long. If I had any say in the matter I would give
the defendant a lengthy sentence, a justifiable sentence, but it would be considerably less than 10
years. But my hands are tied.
I will tell you that it gives me no pleasure to deny
the safety valve.
I think a bit ironic, had the defendant admitted
guilt—I mean the defendant has maintained that
he did not know about this drug transaction, so it’s
kind of ironic that someone who maintains their innocence ends up with 10 years; whereas, if he had
admitted his guilt, likely he would have ended up
with a much lower sentence.
So it’s hard to—it’s hard to reconcile, it’s hard to
justify, and I can’t say that I feel like justice will be
served today, but my hands are tied.
In analyzing the safety valve issue, because I am
looking at what happened that day, you know when
Mr. Montijo knew it was a drug transaction is really what was disputed here.

19a
So when I look at the worst of his conduct that day,
I see that he drove Mr. Mendoza to the transaction.
In my review of the transcripts, he heard the undercover officer when he—when he first pulled in at
the Walmart and he—and he was approached by
the undercover officer, the undercover officer
walked up to the driver’s window and made some
reference to the material, or having the material,
and then asked if the defendants had the money.
So there was a reference to the material, which the
defendant denied knowledge of. But it, nevertheless, was something that was said and something
that he heard.
Also, Mr. Montijo is the person who handed over
the money to the undercover officer, Chris Martin.
In my review of the transcripts, I see that Mr.
Montijo made a comment about next time, or future—the implication was a future dealing of some
sort.
Mr. Montijo made a comment about how the money
was packaged, although he stated he made an incorrect statement, which Mr. Mendoza corrected.
Mr. Montijo talked about going to a hotel, which—
granted, it wasn’t—he wasn’t the first person who
said that, but he did talk about going to a hotel.
And it was—certainly could have been assumed
that if the only thing that the government was going to do was count money, I guess it’s not real clear
why go to a hotel. So the implication being that
there was some knowledge about exchanging money
for drugs.
I look—so those are the things that I looked at as
the worst of his conduct which the jury, you know,
found him guilty of the drug conspiracy. So those—

20a
oh, and—and I forgot to mention, also, Mr. Montijo
fled.
So taking all those things, all of those facts, in my
view, justify the jury’s verdict.
Now, I look at the best analysis of his conduct. So
he said he didn’t hear the conversation that would
suggest this was a drug deal. And so the best of his
conduct, I acknowledge that he was in the car, others were outside of the car.
I acknowledge that there was car noise in the area,
and I believe that Mr. Martin admitted that there
was traffic noise at the scene, and traffic noise was
noted on the video. It was also noted in the transcript.
There was even a time in this exchange where one
of the officers was talking to Mr. Montijo, and it
was apparent that he couldn’t hear, because at one
point he asked—he said something like “eh,” or
“huh,” so whatever was said was repeated to him,
again suggesting that he had trouble—he had difficulty hearing.
The government suggested that there was—that
perhaps Mr. Montijo should have known that these
were law enforcement officers.
But I will—but I kind of put in the best of Geo’s
conduct the fact that law enforcement wanted the
defendants to think they were real drug sources,
which they acknowledged could also mean cartel.
So, so much so, that law enforcement explained to
us during trial that they were also arrested, so to
speak, so as to continue to fool the defendants.
So yes, Mr. Montijo thought they were cartel. I
think that was, practically speaking, what the un-

21a
dercover officers wanted them to believe. So I
don’t—I don’t fault Mr. Montijo for believing it.
Also, the undercover officer said that Mr. Montijo
himself never talked about drugs. And from a review of the transcript, it’s apparent that the com—
many of the comments, if not all the comments that
Mr. Montijo made, were not original to him, but repeated what others said, primarily, Luis.
Also the agent, Juan Martinez, testified that with
his phone calls to Mr. Mendoza that day, when Mr.
Montijo was with Mr. Mendoza in the car headed to
Albuquerque, that Mr. Mendoza did not mention
drugs, so that Mr. Montijo obviously didn’t hear
him say, during those phone calls, anything about
drugs.
So this defendant—there was no evidence presented
that he planned anything. The government didn’t
put on any evidence about this defendant pretransaction. And I don’t recall hearing any evidence
of any benefit to the defendant that was in the
works.
But the jury determined that Mr. Montijo is guilty
beyond a reasonable doubt of conspiracy to possess
drugs, and the Court has concluded that evidence
supported that decision.
The defendant debriefed, and he testified in court,
that he did not know that drugs were involved; that
he didn’t agree to possess drugs for distribution;
and that he did not knowingly involve himself in
the conspiracy; claims he didn’t intend to benefit at
all.
Nevertheless, as I said, the jury concluded that Mr.
Montijo is guilty beyond a reasonable doubt.

22a
And I have concluded that he is not safety valve—
safety valve eligible, because to find that he truthfully debriefed would require me to reach a finding
that is contrary to the jury verdict.
So your objection with respect to the safety valve is
overruled.
You also—the defendant also objected the—to the
presentence report, including the obstruction. Hold
on one second.
You objected to the presentence report, including
the obstruction adjustment, so I have looked carefully at the issues that the government raised.
Basically, the government has taken the position
that the defendant lied and that his lies—the jury
verdict, which again disagreed with the defendant’s
position at trial, suggests that he lied in the testimony he provided to the—to the jury.
I looked, again, very carefully at all of the issues
that the government brought to the Court’s attention. And I, frankly, don’t think that many of the issues that were specifically identified—I don’t think
that they are necessarily contradicted by the—by
the defendant’s testimony.
There are things that the government cites that are
a little bit out of context, frankly.
For example, the government pointed out that the
defendant testified he had no communication with
Lazaro.
And then from my review of the context of those
statements made by Mr. Montijo, it looked to me
like he was talking about no communication with
Lazaro on the way to Albuquerque. It didn’t look to
me like he was making a blanket statement, which
is the implication in the government’s presentation.

23a
He talked about one communication with Lazaro in
May of 2014, despite phone records showing another.
When I looked at that, it looks to me like what the
witness said was that he didn’t talk to Lazaro after
May. And I—I saw a phone record, but I didn’t see
any—any evidence that they actually spoke.
So I—that’s one example of something that I didn’t
find to be a lie, necessarily. And even if—even if it
were, it didn’t appear to be anything that was material.
The government says that he didn’t hear the conversation between Luis and the undercover police,
which happened within feet of him, and for which
his car window was fully open the entire time, and
that he had no idea that it was—that—what was
going to happen during the transaction.
But as I said a little while ago, it is clear that there
was street noise and traffic noise, and even a point
in the transcript where someone was speaking to
Geo about the money, and it appeared that he
didn’t hear.
And again, Chris Martin also testified that there
was traffic noise.
So again, I don’t see that the defendant lied about
those. And I don’t think that the jury verdict is inconsistent with some of those statements.
The lies as to the duress defense, I think that the
jury could have believed all of the points that the
government made in their—that the government
brought the Court’s attention to. The jury could
have believed all of that and still not given the duress defense.

24a
For example, he talked about—the government
talked about the defendant’s testimony that the Albuquerque police work with the Mexican cartel—
drug cartels.
And again, looking at the context it looked to me
what the defendant was talking about was the police use of confidential informants.
It did not look like the defendant was saying that
APD is part of a drug cartel.
And I agree with the government that that would
be a very ludicrous thing to say. But the context
appeared to be that he was working—that APD or
law enforcement was working with informants,
some of whom are—have experience with drug convictions.
Again, the jury verdict demonstrates that the government did prove guilt beyond a reasonable doubt,
and so that’s where we’re at.
But I don’t find that the defendant’s testimony obstructed or hindered or impeded the investigation
or the prosecution or even, really, sentencing.
I did comment earlier that the defendant fled, but I
did note that the guideline application notes comment that fleeing from arrest is ordinarily not covered by the obstruction enhancement.
So I will sustain the defendant’s objection with respect to the obstruction enhancement.
***
Is there any additional objection that I’ve overlooked?
MR. ASSED: I don’t believe so, Your Honor.
MR. MYSLIWIEC: Not from the United States, Your
Honor, I don’t think so.

25a
THE COURT: Okay. All right.
So having ruled on the objections, is there any other
comment Counsel wishes to make?
MR. ASSED: No, Your Honor.
MR. MYSLIWIEC: No, Your Honor. Thank you.
THE COURT: All right.
Let me ask Mr. Montijo and Mr. Assed to come forward, please.
I said earlier that, Mr. Montijo, if there was anything else you wanted to say before sentence is imposed, I would give you that opportunity.
So if there is anything you’d like to say, you have
that opportunity at this time.
THE DEFENDANT: No, Your Honor.
THE COURT: Okay. Thank you.
And, Mr. Assed, the same to you, if there’s anything
else you wanted to bring to the Court’s attention.
MR. ASSED: I don’t believe that’s the case, Judge. Obviously the Court noted our objections.
We, obviously, respect the Court’s order.
We disagree with it, but we respect it.
And we have nothing further to add. I think we’ve
briefed the heck out of every issue with regard to
this case, Judge, and I know that you have looked
at it very carefully.
THE COURT: All right. Thank you.
Well, I have noted that the defendant did enter a
plea agreement as to Count 3, and so the Court accepts the plea agreement. Now, the Court has reviewed the presentence report.
And so the Court has considered the presentence
report factual findings.

26a
The Court has considered the sentencing guideline
applications as well as the sentence—the Court has
also reviewed the sentencing factors that are set
forth at 18 United States Code Section 3553(a)(1)
through (7).
The offense level is 28 and the criminal history category is I.
The guideline imprisonment range here is the mandatory minimum, 120 months as to Count 1.
And as to Count 3, the guideline imprisonment
range is zero to six months.
The Court notes the defendant was involved in the
conspiracy to possess six kilograms of cocaine, and
also illegally reentered the United States after having been deported.
So as to Count 1 of the superseding indictment,
1:14-CR-03758-002-JCH, the defendant Giovanni
Montijo-Dominguez is committed to the custody of
the Bureau of Prisons for a term of 120 months.
As to Count 3, the defendant is committed to the
custody of the Bureau of Prisons for a term of six
months, and said terms shall run concurrently, for
a total term of 120 months.
As to Count 1, the defendant is placed on supervised release for a term of five years.
As to Count 3, the defendant is placed on supervised release for a term of one year.
Said terms will run concurrently, for a total term of
five years.
Said terms shall be unsupervised with the mandatory and standard conditions of supervised release.
The following special conditions will also be imposed:

27a
You must not reenter the United States without legal authorization.
And the Court is imposing this condition because
the defendant is a citizen of Mexico.
The Court also recommends that immigration and
customs enforcement begin removal proceedings
during service of sentence.
Now based on the defendant’s lack of financial resources, the Court will not impose a fine.
The defendant will pay a special assessment of
$200, which is due immediately.
As to Count 1, pursuant to 18 United States Code
Section 3742(a), within 14 days of the entry of
judgment you have the right to appeal the final sentence of this Court. You have the right to apply for
leave to appeal in forma pauperis if you are unable
to pay the cost of an appeal.
As to Count 3, the Court finds that pursuant to the
plea agreement the defendant waives the right to
appeal the final sentence imposed by this Court under 18 United States Code Section 3742(a).
So with that, let me ask Counsel: Is there any reason sentence should not be imposed as I have stated
it, Mr. Mysliwiec?
MR. MYSLIWIEC: No, Your Honor. Thank you.
THE COURT: Mr. Assed?
MR. ASSED: No, Your Honor. I have nothing to add.
THE COURT: All right. Well, with that, then, the
Court will order sentence imposed as stated.
And that concludes the business to come before the
Court this morning.
We’ll be in recess.
(Proceedings concluded at 10:21 a.m.)

28a
APPENDIX C

The Violent Crime Control and Law Enforcement
Act of 1994, codified in relevant part at 18 U.S.C.
3553(f), provides:
(f ) LIMITATION ON APPLICABILITY OF STATUTORY MINIMUMS IN CERTAIN CASES.—Notwithstanding any
other provision of law, in the case of an offense under section 401, 404, or 406 of the Controlled Substances Act (21 U.S.C. 841, 844, 846), section 1010
or 1013 of the Controlled Substances Import and
Export Act (21 U.S.C. 960, 963), or section 70503 or
70506 of title 46, the court shall impose a sentence
pursuant to guidelines promulgated by the United
States Sentencing Commission under section 994 of
title 28 without regard to any statutory minimum
sentence, if the court finds at sentencing, after the
Government has been afforded the opportunity to
make a recommendation, that—
(1) the defendant does not have—
(A) more than 4 criminal history points, excluding any criminal history points resulting
from a 1-point offense, as determined under
the sentencing guidelines;
(B) a prior 3-point offense, as determined under
the sentencing guidelines; and
(C) a prior 2-point violent offense, as determined under the sentencing guidelines;
(2) the defendant did not use violence or credible
threats of violence or possess a firearm or other
dangerous weapon (or induce another participant to do so) in connection with the offense;
(3) the offense did not result in death or serious
bodily injury to any person;

29a
(4) the defendant was not an organizer, leader,
manager, or supervisor of others in the offense,
as determined under the sentencing guidelines
and was not engaged in a continuing criminal
enterprise, as defined in section 408 of the Controlled Substances Act; and
(5) not later than the time of the sentencing hearing, the defendant has truthfully provided to the
Government all information and evidence the
defendant has concerning the offense or offenses
that were part of the same course of conduct or
of a common scheme or plan, but the fact that
the defendant has no relevant or useful other information to provide or that the Government is
already aware of the information shall not preclude a determination by the court that the defendant has complied with this requirement.

